App. 1
CLD-073

NOT PRECEDENTIAL

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2655
UNITED STATES OF AMERICA
v.
BERNARD ROTTSCHAEFER,
Appellant
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Criminal Action No. 2-03-cr-00162-001)
District Judge: Honorable Christopher C. Conner
Submitted for Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
December 19,2019
Before: JORDAN, KRAUSE and
MATEY, Circuit Judges
(Opinion filed January 3, 2020)
OPINION*

* This disposition is not an opinion of the full Court and pur­
suant to I.O.P. 5.7 does not constitute binding precedent.

App. 2
PER CURIAM
Bernard Rottschaefer appeals the District Court’s
order denying his petition for a writ of coram nobis. For
the reasons below, we will summarily affirm the Dis­
trict Court’s order.
The procedural history of Rottschaefer’s criminal
proceedings and the details of his arguments are
known to the parties, set forth in the District Court’s
memorandum, and need not be discussed at length.
Briefly, in 2004, Rottschaefer was convicted by a jury
sitting in the District Court for the Western District of
Pennsylvania of 153 counts of unlawful distribution of
controlled substances. The District Court denied his
motion for a new trial, and we affirmed his conviction
on direct appeal. Rottschaefer then filed another un­
successful motion for a new trial and motion pursuant
to 28 U.S.C. § 2255.
In November 2017, Rottschaefer filed a pro se pe­
tition for a writ of coram nobis. The District Court de­
nied the petition, and Rottschaefer filed a timely notice
of appeal. We have jurisdiction pursuant to 28 U.S.C.
§ 1291 and exercise de novo review over legal issues
arising from the denial of coram nobis relief. See
United States v. Rhines. 640 F.3d 69, 71 (3d Cir. 2011)
(per curiam). We may take summary action if an ap­
peal fails to present a substantial question. See 3d Cir.
I.O.P. 10.6.
A writ of coram nobis is available to challenge
an invalid conviction with continuing consequences
when the petitioner is no longer in custody. Mendoza v.

App. 3
United States. 690 F.3d 157, 159 (3d Cir. 2012). How­
ever, such relief is only available for errors for which
there was no remedy at the time of trial. Id. The error
alleged must be fundamental, i.e., one that under­
mines the jurisdiction of the trial court and invalidates
the trial. Rhines. 640 F.3d at 71. In addition, sound rea­
sons must exist for the petitioner’s failure to seek relief
earlier. Mendoza. 690 F.3d at 159. The Supreme Court
has noted, “it is difficult to conceive of a situation in a
federal criminal case today where a writ of coram nobis
would be necessary or appropriate.” Carlisle v. United
States. 517 U.S. 416, 429 (1996) (internal alteration
omitted).
Rottschaefer is no longer in custody. Assuming
arguendo that there are continuing consequences, we
agree with the District Court that he has not alleged
a fundamental error that would entitle him to coram
nobis relief. In his petition, Rottschaefer challenges,
inter alia, the qualifications of an expert witness and
credibility of the Government’s witnesses and argues
that the prosecution withheld and deleted documents.1
He admits that he included arguments in his coram
1 Rottschaefer admits that he identified the alleged deletions
of exculpatory material before trial. He asserts that he subse­
quently received thousands of pages of patient records during lit­
igation of a civil lawsuit. These records were the basis for his
second unsuccessful motion for a new trial. See United States v.
Rottschaefer. 264 F. App’x 234 (3d Cir. 2008). In his counseled
§ 2255 motion, Rottschaefer argued that the Government failed
to disclose treatment records of the patients who were witnesses
against him. Counsel withdrew this claim at the evidentiary hear­
ing on the motion, noting that he was satisfied that the Govern­
ment had produced everything it had.

App. 4
nobis petition that were previously presented but
that he believed were not adequately addressed.
Rottschaefer has not alleged a fundamental error that
goes to the validity of the trial; rather, he simply seeks
to challenge nearly every piece of evidence that estab­
lished his guilt.
Summary action is appropriate if there is no sub­
stantial question presented in the appeal. See 3d Cir.
LAR 27.4. For the reasons set forth above, as well as
those set forth by the District Court, we will summar­
ily affirm the District Court’s July 11, 2019 judgment.
See 3d Cir. I.O.R 10.6. Rottschaefer’s motions are de­
nied.

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF PENNSYLVANIA
UNITED STATES
OF AMERICA
v.

CRIMINAL NO.
2:03-CR-162
(Chief Judge Conner)

BERNARD
ROTTSCHAEFER, M.D.,
Defendant
MEMORANDUM
(Filed Jul. 11,2019)
Bernard L. Rottschaefer (“Rottschaefer”) petitions
this court for a writ of error coram nobis. (Doc. 140). He
asks that we overturn his convictions for unlawful
distribution of controlled substances. We will deny
Rottschaefer’s petition.
I.

Factual Background & Procedural History

In 2003, a grand jury returned an indictment
charging Rottschaefer, a medical doctor, with 208
counts of unlawful distribution of controlled sub­
stances in violation of 21 U.S.C. § 841(a)(1). A petit
jury found Rottschaefer guilty on 153 of the counts
after a 7-day trial, and he was sentenced to 78 months’
imprisonment. United States v. Rottschaefer. 178 F.
App’x 145, 146, 151 (3d Cir. 2006) (“Rottschaefer I”)
(nonprecedential).

App. 6
Rottschaefer timely filed a notice of appeal. While
the appeal was pending, Rottschaefer moved for a new
trial based on newly discovered evidence. See id. at
148. This evidence included over 500 pages of corre­
spondence between Jennifer Riggle (“Riggle”), one of
the government’s trial witnesses, and her then-boy­
friend. Id At trial, Riggle had testified that she ex­
changed sexual favors with Rottschaefer for various
controlled-substance prescriptions. Id. Riggle’s corre­
spondence with her then-boyfriend indicated that she
had fabricated this testimony to receive a mitigated
sentence for drug charges pending against her. Id The
trial court denied Rottschaefer’s motion for a new trial,
finding that this additional evidence was merely cumu­
lative and impeaching. Id at 148-49. The Third Circuit
upheld this ruling on appeal, albeit for different rea­
sons. Id. at 149-51.
Rottschaefer’s direct appeal also challenged the
validity of his conviction on the basis of prosecutorial
misconduct and ineffective assistance of counsel. Id. at
146-47. He argued that by convicting him of prescrib­
ing drugs for “no legitimate medical reason,” the jury
had wrongly applied a civil, rather than criminal,
standard of liability. Id The Third Circuit rejected
this argument, finding that the trial court provided
the proper standard to the jury and that defense coun­
sel was not ineffective for failing to object to its use.
Id. at 148. Nonetheless, the Third Circuit vacated
Rottschaefer’s sentence and remanded the case for re­
sentencing in accordance with United States v. Booker.
543 U.S. 220 (2005). On remand, Rottschaefer was

App.7
resentenced to 60 months’ incarceration and three
years of supervised release.
Meanwhile, the five patient-witnesses who testi­
fied against Rottschaefer at his criminal trial had filed
civil malpractice claims against him. Rottschaefer
used the information obtained during civil discovery to
prepare a second motion for a new trial. Rottschaefer
advanced two claims: (1) that the deposition testimony
in four of the civil cases proved that the patients
had lied at Rottschaefer’s criminal trial, and (2) that
the government knowingly allowed two patients to
testify falsely that they had not been promised leni­
ency in exchange for testimony. The district court de­
nied Rottschaefer’s second motion. United States v.
Rottschaefer. No. 3-CR-162, 2006 WL 3840997, at *1
(W.D. Pa. Dec. 29,2006) (“Rottschaefer II”). On appeal,
the Third Circuit affirmed. United States v. Rottschaefer.
264 F. App’x 234 (3d Cir. 2008) (“Rottschaefer III”)
(nonprecedential).
Undeterred, Rottschaefer filed a motion to va­
cate and set aside sentence pursuant to 28 U.S.C.
§ 2255. Rottschaefer claimed that his trial attorneys
were ineffective because they “failed to: (1) obtain a
medical expert to rebut the government’s medical ex­
pert; (2) object to improper testimony; (3) obtain medi­
cal records; and (4) object to the jury instructions.”
United States v. Rottschaefer. No. 3-CR-162, 2009 WL
4114616, at *1 (W.D. Pa. Nov. 25, 2009) (“Rottschaefer
IV”). The district court denied Rottschaefer’s Section
2255 motion, and the Third Circuit denied his request
for certificate of appealability on January 22, 2010.

App. 8
More than seven years later, Rottschaefer filed the in­
stant pro se petition for a writ of error coram nobis.1
The petition is fully briefed and ripe for disposition.
II.

Legal Standard

The writ of error coram nobis is an ancient and
“extraordinary remedy.” United States v. Stoneman.
870 F.2d 102, 106 (3d Cir. 1989). It is used to attack
allegedly invalid federal convictions where the defen­
dant suffers continuing consequences but is no longer
in custody. See, e.g.. United States v. Morgan. 346 U.S.
502, 512-13 (1954); Stoneman. 870 F.2d at 105-06. Er­
rors that could be remedied by a new trial usually do
not fall within the ambit of the writ. United States v.
Rhines. 640 F.3d 69,71 (3d Cir. 2011). Rather, the error
must “be fundamental and go to the jurisdiction of the
trial court, thus rendering the trial itself invalid.” Id.
(quoting Stoneman. 870 F.2d at 106). Earlier proceed­
ings are presumed to be correct, and the petitioner
bears the burden of demonstrating otherwise. United
States v. Cariola. 323 F.2d 180,184 (3d Cir. 1963).
The court’s jurisdiction to grant coram nobis re­
lief is extremely limited. Id. Indeed, the Supreme
Court has remarked that “it is difficult to conceive of
a situation in a federal criminal case today where [a
writ of coram nobis] would be necessary or appropri­
ate.” Carlisle v. United States. 517 U.S. 416,429 (1996)
(alteration in original) (quoting United States v. Smith.
1 This matter was designated for service to the undersigned
judicial officer shortly thereafter.

App. 9
331 U.S. 469, 475 n.4 (1947)). Due to the interest in fi­
nality ofjudgments, the standard for coram nobis relief
is even stricter than the standard for habeas relief.
Stoneman. 870 F.2d at 106 (citing United States v.
Osser. 864 F.2d 1056, 1059 (3d Cir. 1988)). To obtain
such a writ, the petitioner must demonstrate five ele­
ments: (1) he is no longer in custody; (2) his trial con­
tained errors of fact “of the most fundamental kind”;
(3) no remedy was available at the time of his trial;
(4) he suffers continuing consequences of his criminal
conviction; and (5) sound reasons exist for his failure
to seek relief at an earlier time. Id. at 105-06 (quoting
Cariola. 323 F.2d at 184).
III. Discussion
The parties agree that Rottschaefer is no longer in
custody. Thus, Rottschaefer’s petition turns on four is­
sues: whether his trial was fundamentally erroneous,
whether there was a remedy available at trial, whether
Rottschaefer suffers continuing consequences from his
conviction, and whether he has provided sound reasons
for his failure to seek relief earlier. Assuming, without
deciding, that Rottschaefer suffers continuing conse­
quences, we conclude that he is unable to establish the
remaining requirements for coram nobis relief.
A. Rottschaefer’s Trial and Available Rem­
edies
Rottschaefer makes two noteworthy claims re­
garding the validity of his trial: first, that the district

App. 10
court erroneously qualified Douglas Clough, M.D. (“Dr.
Clough”) as an expert witness, and second, that the
government engaged in prosecutorial misconduct.2
Neither argument warrants relief.
1. Dr. Clough’s Testimony
Rottschaefer claims that the district court and the
Third Circuit inconsistently applied the law by failing
2 Criminal defendants may not resort to a coram nobis peti­
tion simply because they cannot meet the standard necessary for
a successful initial or successive motion under 28 U.S.C. § 2255.
Rhinos. 640 F.3d at 72. Moreover, petitions for coram nobis or­
dinarily may not be used to relitigate issues that were rejected
on direct appeal or collateral review. See, e.g.. United States v.
Zuckerman, 367 F. App’x 291, 293-94 (3d Cir. 2009) (per curiam)
(nonprecedential) (holding that coram nobis may not be used to
relitigate previously rejected issues unless other post-conviction
remedies are “inadequate and ineffective”); United States v.
Harkonen, 705 F. App’x 606,606-07 (9th Cir. 2017) (nonpreceden­
tial); United States v. Brown. 692 F. App’x 800, 800 (8th Cir.
2017) (per curiam) (nonprecedential); Calvert v. United States.
351 F. App’x 475, 476 (2d Cir. 2009) (nonprecedential); United
States v. Schreier. No. 95-5076, 1996 WL 159945, at *2 (10th
Cir. Apr. 5, 1996) (table). Rottschaefer’s petition attempts to
relitigate three claims that were previously asserted and re­
jected: (1) that Drug Enforcement Administration (“DEA”)
Agent Lewis Colosimo provided invalid expert testimony (re­
jected in Rottschaefer IV): (2) that the trial court wrongly applied
a civil, rather than criminal, standard of liability (rejected in
Rottschaefer I): and (3) that Judge Lancaster abused his discre­
tion in denying Rottschaefer’s second motion for a new trial (re­
jected in Rottschaefer III). Rottschaefer provides no new
information or legal authority for these claims; he simply at­
tempts to refute the reasoning of the district court and court of
appeals. Consequently, we decline to entertain these recycled
arguments.

App. 11
to disqualify Dr. Clough as an expert witness. In sup­
port, Rottschaefer points to a letter issued by the DEA
purporting to establish that Dr. Clough’s own prescrib­
ing practices violate federal law. Rottschaefer also re­
lies on Dr. Clough’s testimony that he never studied or
practiced pain management. Rottschaefer asserts that
permitting Dr. Clough to testify as an expert consti­
tutes fundamental error.
This argument is unavailing. Coram nobis relief
is reserved only for “errors of fact of ‘the most funda­
mental kind.’” Cariola. 323 F.2d at 184 (emphasis
added) (quoting United States v. Mayer. 235 U.S. 55,
69 (1914)). Qualification of an expert witness, per con­
tra, is a question of law. See Daubert v. Merrell Dow
Pharm.. Inc.. 509 U.S. 579, 589-92 (1993); Fed. R. Evid.
702. Even if Rottschaefer’s claim fell within the ru­
bric of factual error, it would still fail. Rottschaefer
cannot demonstrate that he utilized all available trial
remedies to rectify this alleged error. For example,
Rottschaefer could have cross-examined Dr. Clough
about his purportedly illegal prescribing practices,
raised the expert-qualification issue on direct appeal,
or collaterally attacked the decision to allow Dr. Clough
to testify as an expert. Rottschaefer took no such action
and has proffered no reason to excuse this failure.
2. Prosecutorial Misconduct
Rottschaefer next claims that the government re­
sorted to prosecutorial misconduct to obtain a convic­
tion. (See Doc. 140 at 20-32). Specifically, Rottschaefer

App. 12
contends that the government selectively deleted
hundreds of pages of exculpatory medical records and
misled its own expert witness by not providing the
witness with this critical information. According to
Rottschaefer, the withheld medical records establish
legitimate medical reasons for the controlled-substance
prescriptions for which he was prosecuted.
We note that this claim is not frivolous. The alleg­
edly omitted records tend to suggest plausible medi­
cal reasons for the controlled-substance prescriptions
written for several of the patient-witnesses.3 (See, e.g..
Doc. 140-6 at 27-29). Rottschaefer has also submitted
evidence that Dr. Clough was not provided with these
medical records. (See Doc. 140 at 21 n.29, 23-24 &
n.35). But even assuming arguendo that Rottschaefer’s
claims of prosecutorial misconduct are accurate, he
clearly failed to utilize available trial remedies. As
the treating physician, Rottschaefer presumably had
firsthand knowledge of his patients’ medical history,
and Rottschaefer testified at trial. Rottschaefer could
have attested to these reasons for his prescription
practices. He also admits that he was aware at trial
of the purportedly deleted documents and that the

3 Rottschaefer points to patient-witness Pammy Miller
(“Miller”) as one of several examples. According to Rottschaefer,
Miller suffered chronic pain following a serious car accident. Her
injuries were so substantial that Rottschaefer ordered approxi­
mately 100 X-ray films and referred her to an orthopedic special­
ist roughly 30 times. (See Doc. 140 at 21 n.30). This information,
he contends, was selectively withheld by the government from
Dr. Clough.

App. 13
government had admitted at least some of these rec­
ords as exhibits. (See Doc. 140 at 20-22 & nn.28-30). It
follows that Rottschaefer could have sought to intro­
duce this evidence as part of his defense or moved for
a new trial pursuant to Federal Rule of Criminal Pro­
cedure 33 based on the alleged misconduct. See United
States v. Dixon. 658 F.2d 181, 193 (3d Cir. 1981) (ex­
plaining that Rule 33 motions may be granted where
there is a finding of prosecutorial misconduct). Errors
which could be remedied by a new trial generally do
not fall within the scope of the coram nobis writ.
Rhines. 640 F.3d at 71. Hence, Rottschaefer has failed
to establish that fundamental errors rendered his trial
invalid or that no remedies were available to address
the alleged errors.
B. Rottschaefer’s Failure to Seek Relief
Earlier
Rottschaefer likewise cannot demonstrate that
“sound reasons” exist for his failure to seek relief at an
earlier time. The sound-reasons-for-delay standard is
even more stringent than the metric used to evaluate
Section 2255 motions. Ii In Mendoza v. United States.
690 F.3d 157 (3d Cir. 2012), the court held that the pe­
titioner had unreasonably delayed seeking coram
nobis relief by waiting four years to allege that his at­
torney had been ineffective. Mendoza. 690 F.3d at 15960. The court reasoned that the petitioner’s reliance on
the unsettled state of the relevant law was not a sound
reason to justify the delay. Id. Rottschaefer correctly

App. 14
notes that under United States v. Cariola. if a peti­
tioner “has been denied a fundamental constitutional
right, the passage of time will not preclude him from
relief.” Cariola. 323 F.2d at 183. However, the Cariola
court did not obviate the diligence requirement for
coram nobis relief. The court specifically noted that
there was a mere 18-month interval between when
the petitioner first learned of the constitutional viola­
tion and when he sought relief. Id. Such a delay, the
court found, was not unreasonable. Id.
Rottschaefer offers no mitigating circumstance
that would justify the substantial delay in this case.
His sole contention is that his petition is “timely be­
cause the District Court’s ruling on [his] 2255 eviden­
tiary hearing constitutes a prime part of [his] request
for a writ of [c]oram [rc]o&is[.]” (Doc. 140 at 2). Yet
Rottschaefer’s Section 2255 motion was rejected over
seven years before he filed the instant petition—al­
most twice the length of time as the Mendoza case.
Additionally, Rottschaefer’s term of supervised release
ended on February 7,2013. (See Doc. 139). Thus, at the
time he filed this petition, he had been potentially eli­
gible to seek coram nobis relief for almost five years.
Rottschaefer proffers no sound reason for his signifi­
cant delay and therefore fails to satisfy another ele­
ment necessary for coram nobis relief.

App. 15
IV. Conclusion
For the foregoing reasons, we will deny Rottschaefer’s petition (Doc. 140) for a writ of error coram
nobis. An appropriate order shall issue.
/S/ Christopher C. Conner
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania
Dated: July 11, 2019

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF PENNSYLVANIA
CRIMINAL NO.
2:03-CR-162

UNITED STATES
OF AMERICA
v.

(Chief Judge Conner)

BERNARD
ROTTSCHAEFER, M.D.,
Defendant
ORDER
(Filed Jul. 11,2019)
AND NOW, this 11th day of July, 2019, upon con­
sideration of the petition (Doc. 140) for a writ of error
coram nobis by defendant Bernard L. Rottschaefer,
M.D., and in accordance with the accompanying mem­
orandum, it is hereby ORDERED that the petition
(Doc. 140) is DENIED.
/S/ Christopher C. Conner
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania

